   Office of Inspector General
   Audit Report




REPLACEMENT HOUSING AT THE
AUSTIN AVENUE RADIATION SITE



        E1SFF7-03-0117-8100090

            March 30, 1998
Inspector General Division
  Conducting the Audit:      Mid-Atlantic Audit Division
                             Philadelphia, PA

Region Covered:              Region 3

Program Office Involved:     Office of Solid Waste & Emergency
                              Response
                             Washington, DC
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  WASHINGTON, D.C. 20460



                                                                       OFFICE OF
                                                               THE INSPECTOR GENERAL




March 30, 1998

MEMORANDUM

SUBJECT: Final Audit Report on Replacement Housing
         at the Austin Avenue Radiation Site
         Audit Report No. E1SFF7-03-0117-8100090


FROM:       Michael Simmons /s/
            Deputy Assistant Inspector General
             for Internal Audits (2421)

TO:         Timothy Fields, Jr.
            Acting Assistant Administrator
             for Solid Waste and Emergency Response (5101)


Attached is our final audit report on Replacement Housing at the Austin Avenue
Radiation Site. The overall objective of this audit was to determine the
reasonableness of costs paid by EPA to build ten new houses. This report contains
important findings and recommendations concerning the need for EPA to develop a
policy for building houses under Superfund.

In this particular audit, the Office of Inspector General (OIG) did not measure the
audited office’s performance against the standards established by the National
Contingency Plan (NCP). The findings contained in this audit report are not
binding in any enforcement proceeding brought by EPA or the Department of
Justice under Section 107 of the Comprehensive Environmental Response,
Compensation, and Liability Act to recover costs incurred not inconsistent with the
NCP.



As signed by Michael Simmons on 03/30/98.
ACTION REQUIRED

In accordance with EPA Order 2750, you as the action official are required to
provide us with a written response to the audit report within 90 days of the final
audit report date. Your response should address all recommendations, and include
milestone dates for corrective actions.

This audit report contains findings that describe problems the Office of Inspector
General has identified and corrective actions the OIG recommends. This audit
report represents the opinion of the OIG and the findings contained in this audit
report do not necessarily represent the final EPA position. Final determinations on
matters in this audit report will be made by EPA managers in accordance with
established EPA audit resolution procedures.

We have no objections to the further release of this report to the public. If your
staff has any questions, please contact Michael Wall, Team Leader, Mid-Atlantic
Audit Division, at (215) 566-5800, or Bill Samuel of my staff, at (202) 260-3189.

Attachment




                                          4
                  EXECUTIVE SUMMARY


Introduction   Superfund was established by the Comprehensive
               Environmental Response, Compensation, and Liability Act of
               1980, which was reauthorized by Congress in 1986 and 1990.
               The purpose of the program is to protect public health and
               the environment from the release, or threat of release, of
               hazardous substances. This protection can range from
               “removal” actions to control emergency situations, to more
               permanent long-term “remedial” actions. The Austin Avenue
               Radiation Site underwent both removal and remedial
               actions.

               The site consisted of 40 properties in six municipalities that
               were contaminated with radium and thorium, which are
               considered health hazards when inhaled or ingested. Under
               a removal action, 18 of the properties were decontaminated
               and restored at a cost of $24 million. The remaining 22
               properties were addressed through the remedial program at
               a cost of $31 million. The remedial cleanup included
               demolition, sampling, excavation and disposal of the
               radiologically contaminated materials, temporary and
               permanent relocations of the homeowners, and
               reconstruction of the houses. Regarding the 22 properties,
               initially Region 3 had wanted to demolish most of the
               contaminated structures and permanently relocate the
               owners into replacement houses. However, due to public and
               political pressure, the Region allowed most of the owners the
               option to either relocate or to have new houses built on site.
               Ten of the owners chose to rebuild. Eight of the owners
               chose to permanently relocate. Four of the owners were not
               given a choice as to how their properties were to be
               remediated.



Objective      The purpose of this audit was to determine the
               reasonableness of the costs paid by EPA to build ten new
               houses at the Austin Avenue Radiation Site.

                                  1

                                       Report No. E1SFF7-03-0117-8100090
Results-in-Brief   At the Austin Avenue Radiation Site, Region 3 spent an
                   average of $651,700 each to custom-build 10 houses (see
                   Exhibit A for “Before” and “After” pictures). The appraised
                   value of the old houses averaged only $147,000 each. The
                   cost variance occurred because the Region built new houses,
                   rather than relocate the owners, as has been historically the
                   case. Also, the Region undertook the building of new houses
                   without benefit of any guidance from EPA Headquarters.
                   Adopting the position that EPA was obligated to replace “like
                   for like,” even though the original houses had been built
                   decades earlier, resulted in cost becoming less of a factor.
                   The lack of guidance, coupled with the demands made by
                   some property owners and local government representatives,
                   lengthened the process and increased costs.

                   We do not believe that EPA should be in the house-building
                   business. Furthermore, EPA was not mandated to replicate
                   every facet of an existing structure.



Recommendations    We recommend that the Agency establish a policy whereby
                   instead of building new houses, EPA will give preference to
                   other options that consider the fair market value of the
                   properties. For example, EPA could give the owners: (a) the
                   replacement value of their property, such as is done by the
                   insurance industry; or, (b) the amount EPA would have paid
                   to permanently relocate the owners under the Uniform
                   Relocation Act. Either of these options would enable the
                   owners to arrange for the rebuilding of new homes on their
                   existing lots at a fair and reasonable cost without involving
                   the government in the house-building business. We also
                   recommend that the Agency develop a policy now that
                   explicitly defines equivalent housing before this type of
                   situation occurs again.




                                     2

                                           Report No. E1SFF7-03-0117-8100090
Agency Response to   The Agency agreed with our recommendations and indicated
Draft Report         that it will evaluate and define: (1) equivalent housing when
                     Superfund activities impact residential properties; and (2)
                     address the available options for providing equivalent
                     housing in lieu of building new houses for impacted
                     residents.

OIG Evaluation       EPA’s response meets the intent of our recommendations.
                     We will be available to review the policy as it is being
                     developed, and provide input from our perspective.




                                       3

                                             Report No. E1SFF7-03-0117-8100090
[This page was intentionally left blank.]




                   4

                         Report No. E1SFF7-03-0117-8100090
                                       TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

CHAPTER 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
    Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
          Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
          Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
          Noteworthy Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
          Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
          Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

CHAPTER 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   15
    EPA Paid Excessive Amounts to Build Houses . . . . . . . . . . . . . . . . . . . . . .                                  15
         Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             24
         Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    25
         Agency’s Response to Recommendations . . . . . . . . . . . . . . . . . . . . . .                                   25
         OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 26

EXHIBIT A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
    Before and After Pictures of Properties . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

APPENDIX A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41
    Agency’s Response to Draft Audit Report . . . . . . . . . . . . . . . . . . . . . . . . . . . 41
    Region 3's Comments to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

APPENDIX B . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53
    Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53




                                                              5

                                                                      Report No. E1SFF7-03-0117-8100090
[This page was intentionally left blank.]




                   6

                         Report No. E1SFF7-03-0117-8100090
                          CHAPTER 1

                         Introduction


Purpose        The purpose of this audit was to determine the
               reasonableness of the costs paid by EPA to build ten new
               houses at the Austin Avenue Radiation Site.



Background     Superfund was established by the Comprehensive
               Environmental Response, Compensation, and Liability Act of
               1980, which was reauthorized by Congress in 1986 and 1990.
               The purpose of the program is to protect public health and
               the environment from the release, or threat of release, of
               hazardous substances. This protection can range from
               “removal” actions to control emergency situations, to more
               permanent long-term “remedial” actions. The cleanups are
               funded either by the parties responsible for the
               contamination, or from a trust fund established under the
               Act. The Austin Avenue Radiation Site underwent both
               removal and remedial actions all of which was paid for out of
               the trust fund.

Site History   Austin Avenue consisted of 40 radiologically contaminated
               properties in six municipalities. Between 1915 and 1922, a
               company located on Austin Avenue in Lansdowne,
               Pennsylvania conducted a radium-processing operation.
               This operation generated approximately 210 tons of
               “tailings” containing radium and thorium, some of which
               were mixed into materials used to build or renovate houses
               within the six municipalities.

               Radium and thorium are considered health hazards when
               inhaled or ingested. The threat posed by the contamination
               at the 40 properties was due to the significant possibility
               that the radiological contamination may spread into the
               environment in an uncontrolled fashion. Thus, EPA believed


                                 7

                                      Report No. E1SFF7-03-0117-8100090
              that the actual or threatened releases of hazardous
              substances from this site posed a threat to the public health
              and the environment.

              The history of the Austin Avenue Radiation Site is
              intertwined with that of the Lansdowne Radiation Site. In
              1924, a university professor, who had worked at the Austin
              Avenue company, set up a radium-processing operation in
              the basement of his home to produce radium-filled implant
              needles for the treatment of cancer. In 1984, EPA
              determined that this house, as well as an adjoining house,
              were radioactive. After the houses were demolished and the
              site cleaned up, a private developer built four new houses on
              the property.

EPA Actions   Under a removal action, 18 of the Austin Avenue properties
              were decontaminated and restored at a cost of $24 million.
              The remaining 22 properties were addressed through the
              remedial program at a cost of $31 million. The remedial
              cleanup included demolition, sampling, excavation and
              disposal of the radiologically contaminated materials,
              temporary and permanent relocations of homeowners, and
              reconstruction of the houses. Regarding the 22 properties,
              initially Region 3 had wanted to demolish most of the
              contaminated structures and permanently relocate the
              owners into replacement houses. However, due to public and
              political pressure, the Region allowed most of the owners the
              option to either relocate or to have new houses built on site.
              Ten of the owners chose to rebuild. Eight of the owners
              chose to permanently relocate. Four of the owners were not
              given a choice as to how their properties were to be
              remediated. Instead one was relocated, and the other three
              had their properties repaired.




                                 8

                                      Report No. E1SFF7-03-0117-8100090
                                      OPTIONS PROVIDED        OWNER’S
                      PROPERTY            TO OWNER           SELECTION

                         A             Relocate or Rebuild    Rebuild

                         B             Relocate or Rebuild    Rebuild

                         C             Relocate or Rebuild    Rebuild

                         D             Relocate or Rebuild    Rebuild

                         E             Relocate or Rebuild    Rebuild

                         F             Relocate or Rebuild    Rebuild

                         G             Relocate or Rebuild    Rebuild

                         H             Relocate or Rebuild    Rebuild

                         I             Relocate or Rebuild    Rebuild

                         J             Relocate or Rebuild    Rebuild

                         K                   None               N/A

                         L                   None               N/A

                         M                   None               N/A

                         N             Relocate or Rebuild    Relocate

                         O             Relocate or Rebuild    Relocate

                         P             Relocate or Rebuild    Relocate

                         Q             Relocate or Rebuild    Relocate

                         R             Relocate or Rebuild    Relocate

                         S             Relocate or Rebuild    Relocate

                         T             Relocate or Rebuild    Relocate

                         U             Relocate or Rebuild    Relocate

                         V                   None               N/A




Rebuild Option   For the 10 property owners who selected to build new
                 houses, EPA’s Record of Decision called for the Federal
                 Government to fund the construction of new houses to
                 replace the ones demolished by EPA. The new houses would
                 cost an estimated $5 million and would be constructed:

                 -    On the same lots once all the debris and contaminated
                      soils were removed.


                                  9

                                       Report No. E1SFF7-03-0117-8100090
                    -     In accordance with current building codes, using
                          modern materials and methodologies.

                    -     With the equivalent amount of floor space as the
                          contaminated houses.

                    -     To retain the same architectural character and “curb
                          appeal” as the contaminated houses.

                    The Record of Decision also allowed each property owner to
                    participate in the selection of a building design, materials,
                    and features for the property.

                    On December 15, 1994, EPA entered into an interagency
                    agreement with the US Army Corps of Engineers (USACE)
                    in the amount of $28,300,000 to arrange for the demolition,
                    cleanup, and construction activities during the remedial
                    action. On July 28, 1995, the USACE awarded a
                    $13,685,414 firm-fixed price contract to remove
                    contaminated materials, renovate houses, and build new
                    houses. The total cost of the contract with modifications was
                    $15,164,165. As of January 1998, all of the new houses had
                    been turned over to the owners.

Relocation Option   On December 30, 1994, EPA entered into an interagency
                    agreement with the USACE in the amount of $1,820,630 to
                    arrange for the permanent relocations. The eight owners
                    who opted to relocate were to receive comparable houses in
                    accordance with the Uniform Relocation Assistance and
                    Property Acquisition Policies Act (URA). Under the URA,
                    the Government provides relocation benefits such as moving
                    expenses, as well as a purchase supplement up to a
                    maximum of $22,500 to enable the owner to relocate to a
                    comparable replacement property. This purchase
                    supplement is the difference between the cost of the
                    replacement property and value of the original property.

                    According to the URA, relocations must be to a decent, safe,
                    and sanitary dwelling meeting applicable housing and
                    occupancy codes. The dwelling must be adequate in size
                    with respect to the number of rooms and area of living space

                                      10

                                            Report No. E1SFF7-03-0117-8100090
                  needed to accommodate the displaced persons. In addition,
                  the relocation must be to a comparable replacement property.
                  This means that in addition to being decent, safe, and
                  sanitary, the property will be among other things:

                  -     Functionally equivalent to the previous house.

                  -     Adequate in size to accommodate the occupants.

                  -     In a location as desirable as that of the previous
                        house.

                  -     Within the financial means of the displaced persons.

                  As of November 1997, EPA had spent approximately
                  $1,184,962 on the permanent relocations and all but one of
                  the owners had been relocated.



Noteworthy        The Austin Avenue Radiation Site presented novel
Accomplishments   challenges to Region 3 and the US Army Corps of Engineers.
                  This particular project was extremely difficult to manage
                  because of its direct impact on a very concerned community.
                  In addition, EPA and USACE personnel had to address the
                  concerns of Local, State and Federal elected officials as well
                  as those of the individual property owners. We commend the
                  personnel involved with this project for their efforts to solve
                  the complex problems associated with the 10 properties and
                  the numerous issues associated with the remainder of this
                  large project. More than 240 railroad cars (approximately
                  22,000 tons) of radiologically contaminated materials were
                  carefully excavated and removed from several residential
                  neighborhoods and shipped for disposal at a permitted
                  facility.


Scope and         We performed the audit in accordance with the Government
Methodology       Auditing Standards (1994 Revision) issued by the
                  Comptroller General of the United States as they apply to
                  economy and efficiency audits. Our review included tests of


                                    11

                                          Report No. E1SFF7-03-0117-8100090
the program records and other auditing procedures we
considered necessary.

We reviewed the Comprehensive Environmental Response,
Compensation, and Liability Act, the Uniform Relocation
Assistance and Property Acquisition Policies Act, the Code of
Federal Regulations, the Federal On-Scene Coordinator’s
After Action Report, and the December 1993 Memo from the
Assistant Administrator for the Office of Solid Waste and
Emergency Response which authorized Region 3 to build
new houses. We also reviewed the interagency agreements
with the US Army Corps of Engineers (USACE), as well as
the contract awarded to clean up the site and build the new
houses. In addition, we performed two site visits during
which we attended weekly progress meetings and toured
houses under construction.

We performed our review in EPA Region 3 where we
interviewed the On-Scene Coordinator, and the Section Chief
and the Remedial Project Managers (RPMs) from the
Remedial Section of the Hazardous Sites Cleanup Division.
We also interviewed personnel from the USACE
Construction Division and the Real Estate Division. We
reviewed voluminous EPA documents maintained by the
former and current RPM regarding EPA’s decision to build
the new houses. These included the Proposed Remedial
Action Plan (PRAP), the Revised PRAP, the Record of
Decision, and various documents relative to community
opposition. We also reviewed log books maintained by the
former RPM, costs related to building the new houses, costs
associated with temporarily and permanently relocating
residents, and the minutes from weekly progress meetings
that were submitted by the cleanup contractor.


The scope of our audit focused primarily on the Austin
Avenue Radiation Site and the reasonableness of the costs
EPA paid to build 10 new houses. Our audit included an
evaluation of management controls and procedures
specifically related to the audit objective. As part of this
audit, we reviewed the Hazardous Sites Cleanup Division’s

                  12

                        Report No. E1SFF7-03-0117-8100090
              Annual Reports on Internal Controls for fiscal years 1994 to
              1996. There were no weaknesses identified in these reports
              that pertained to the scope of work we audited.

              We completed our survey on May 30, 1997. As a result of our
              survey, we initiated an in-depth audit on June 2, 1997. The
              field work for this audit was completed on December 31,
              1997. We submitted position papers on potential issues to
              EPA Headquarters’ Director, Office of Emergency and
              Remedial Response (OERR) on January 5, 1998, and to the
              Region 3 Acting Director, Hazardous Sites Cleanup Division,
              on January 6, 1998. We received Region 3's response on
              January 26, 1998, and met with regional personnel on
              February 4, 1998 to discuss their response and clarify
              several issues. On February 2, 1998, OERR responded to the
              position papers. On February 5, 1998, we discussed this
              response with OERR personnel and solicited comments on
              our proposed recommendations.

              We issued a draft report on February 11, 1998, to the
              Assistant Administrator for Solid Waste and Emergency
              Response. His response of February 26 also included
              comments from the Region 3 RPM. On March 5, 1998, we
              met with the RPM to clarify several issues. On March 17,
              1998, we received comments from the Administrator of
              Region 3. On March 19, 1998, we held an exit conference
              with the Administrator and Acting Deputy Administrator of
              Region 3, and with representatives of the Office of Solid
              Waste and Emergency Response. EPA’s responses to our
              draft report are summarized at the end of Chapter 2 and
              provided in their entirety in Appendix A.



Prior Audit   There has been no prior audit coverage of the issues
Coverage      discussed in this report.




                                13

                                     Report No. E1SFF7-03-0117-8100090
[This page was intentionally left blank.]




                   14

                         Report No. E1SFF7-03-0117-8100090
                  CHAPTER 2

EPA Paid Excessive Amounts to Build Houses


                                      At the Austin Avenue
                                      Radiation Site, Region 3 spent
          On average, EPA spent
                                      an average of $651,700 each to
              over $650,000 to
                                      custom-build 10 new houses.
            custom-build houses.
                                      The appraised value of the old
                                      houses averaged only $147,000
                                      each. The cost variance
       occurred because the Region built new houses rather than
       relocate the owners, as has been historically the case. Also,
       the Region undertook the building of new houses without
       benefit of any guidance from EPA Headquarters. Adopting
       the position that EPA was obligated to replace “like for like,”
       even though the original houses had been built decades
       earlier, resulted in cost becoming less of a factor. The lack of
       guidance, coupled with the demands made by some property
       owners and local government representatives, lengthened
       the process and increased costs.

       We do not believe that EPA should be in the house-building
       business, or that it is mandated to replicate every facet of an
       existing structure. In the future, we recommend that the
       Agency use other options instead of building new houses.
       One option that was previously suggested by the USACE for
       the site was to compensate the owners for the fair market
       value of the properties to enable them to arrange for the
       rebuilding of new homes on their existing lots. We also
       recommend that the Agency develop a policy now that
       explicitly defines equivalent housing before this type of
       situation occurs again.




                          15

                                Report No. E1SFF7-03-0117-8100090
Build Versus   The Region’s original intent was to relocate the owners, as
Relocate       had been done in the past at other Superfund sites.
               According to regional Superfund personnel, building new
               houses was more costly because of Federal contracting
               requirements. For example, the “Davis-Bacon Act”
               mandated increased labor rates, and the “Buy American Act”
               restricted the sources available for materials. Also, although
               the USACE was quite experienced with relocating people
               into comparable houses, neither it nor Region 3 were
               experienced in building new houses. Moreover, building new
               houses required more involved negotiations with owners and
               more oversight on the part of the Government.

               Accordingly, on July 1, 1993, Region 3 issued a Proposed
               Remedial Action Plan (PRAP), which explained that EPA
               would permanently relocate the owners into comparable
               housing and demolish most of the houses. In response,
               however, the Region received over 700 form letters protesting
               the proposed relocations and demanding that EPA build new
               houses. The arguments presented against relocating the
               owners included dwindling property values, a shrinking tax
               base, and the fear that EPA would leave the municipalities
               with abandoned lots. The Region, on the other hand, argued
               that at a former Superfund site—in the same area and with
               the same problem—it had relocated the owners, demolished
               the houses, and cleaned up the site upon which four new
               houses now stood generating tax revenue. The Region also
               preferred relocation over building because it would cost less,
               and because regional personnel were inexperienced with
               building houses and negotiating housing amenities with
               owners.

                                             Region 3 also received pressure
                  EPA strongly urged         to build new houses from Local,
                   to build houses.          State, and Federal officials. For
                                             example, on August 24, 1993, the
                                             Acting Regional Administrator
               received a letter signed by two Senators and three
               Congressmen. The letter strongly urged EPA to reconsider
               its preference for relocation which seemed based on financial
               considerations, and to build new houses. In the meantime,

                                 16

                                       Report No. E1SFF7-03-0117-8100090
                     the Region had requested EPA Headquarters (Director,
                     Office of Emergency and Remedial Response) to determine if
                     Superfund monies could even be used to build new houses,
                     pointing out that Agency actions at this site may set
                     precedent for future remedial actions at other sites. On
                     October 19, 1993, the Acting Regional Administrator again
                     asked for a decision, explaining that the local officials were
                     planning to approach the Administrator, and that he was
                     under considerable pressure to finalize the Agency’s position
                     on this situation. On December 17, 1993, EPA Headquarters
                     (Assistant Administrator for the Office of Solid Waste and
                     Emergency Response) informed Region 3 that it could—and
                     should—build new houses that were equivalent to those in
                     place prior to demolition. However, the Region received no
                     guidance on how to go about this process.

                     In order to gain community acceptance,1 the Region issued a
                     revised PRAP on March 2, 1994, which offered many of the
                     owners the option to rebuild, but asserted that five of the
                     properties could be repaired. Based on community response,
                     EPA modified the revised PRAP. On June 27, 1994, the
                     Record of Decision stipulated that 18 property
                     owners—including 4 whose houses that had been slated for
                     repair—could now have their houses rebuilt. Ten of the
                     owners took advantage of this option. Thus, Region 3 and
                     the USACE now reluctantly entered the custom house-
                     building business.

Cost to Build        Before building the new houses, the USACE paid a
                     contractor to appraise the old houses. As seen in the
                     following chart, EPA paid 300 percent more on average to
                     construct the new houses than the appraised value of the
                     properties; in two instances, the building costs exceeded the
                     appraisals by 400 percent. NOTE: We derived the “COST
                     TO REBUILD” from the amounts proposed by the contractor
                     on the “Contract Unit Price Schedule” included in the firm-
1
 Community acceptance is one of nine criteria evaluated when selecting a remedy.
The lack of community acceptance can change a remedy. The Acting Regional
Administrator at that time informed us that he did not change the remedy because
of political pressure, but rather to gain community acceptance.

                                       17

                                             Report No. E1SFF7-03-0117-8100090
fixed price contract awarded on July 28, 1995, plus
subsequent modifications to the Price Schedule. This did not
include the cost of removing the contaminated materials.

                        APPRAISED            COST TO
    PROPERTY              VALUE              REBUILD
         A                $103,000            $354,360
         B                $114,500            $277,694
         C                $120,500            $390,628
         D                $141,500            $422,175
         E                $153,200            $507,878
         F                $155,000            $360,395
         G                $161,000            $706,010
         H                $161,500            $489,816
         I                $162,700            $487,449
         J                $200,000            $911,411
      TOTAL              $1,472,900          $4,907,816

In addition to the $4.9 million in direct costs, the Agency
paid approximately $1.6 million in indirect costs. According
to Regional and USACE personnel these indirect costs
included:

[     Fees paid to architect & design engineer to
      design the 10 houses                          $570,829

[     Fees paid to architect & design engineer      $ 98,615
      to meet with owners to select interior
      amenities




[     Time spent dealing with owners & public


                  18

                       Report No. E1SFF7-03-0117-8100090
                         officials by:
                                 EPA                                  $     48,893
                                 USACE Construction Division               150,000
                                 USACE Real Estate Division                149,404
                                 USACE Cleanup Contractor                  300,000

                   [     Davis-Bacon labor adjustment                      100,711

                   [     Landscaping for the 10 houses                     141,734

                   [     Fees for local inspections                          9,500

                   [     Fees for supplemental local inspections            40,125

                         Subtotal - Additional Costs Incurred         $1,609,811

                   [     Direct Building Cost                             4,907,816

                         Total Cost                                   $6,517,627

Cost Became Less   The Region knew it would cost more to build new houses,
of a Factor        than to take advantage of the USACE’s expertise and
                   relocate the owners. However, it appears that after the
                   Region’s authority to build equivalent houses was clarified,
                   cost became less of a factor. Based on the figures above, EPA
                   spent an average of $651,700 each to rebuild 10 houses
                   whose appraised value averaged only $147,000 each. Refer
                   to Exhibit A for “Before” and “After” pictures.

                   Regional
                   personnel               Customized replication of 70-year-old
                   explained that           houses increased government cost.
                   part of the high
                   cost was
                   attributable to Federal mandates such as the “Davis-Bacon”
                   and the “Buy American” Acts. They also explained that
                   these houses cost more to build because the Region had
                   replicated as closely as possible the original houses, in order
                   to “make the owners whole again.” Unfortunately, this
                   engendered extraordinarily excessive costs, because rather
                   than replacing the original houses with houses of equal
                   value, the Region replaced them with extensively customized
                   replicas. This decision to replace “like for like” coupled with

                                      19

                                           Report No. E1SFF7-03-0117-8100090
                        the demands of some of the owners resulted in the total costs
                        being far higher than they need have been. In dealing with
                        the owners, EPA utilized the services of individuals from a
                        variety of occupations including architecture, interior design,
                        botany, and in one instance, psychiatry.

                        Personnel from the USACE, Region 3, and the architect
                        negotiated with property owners over the custom design of
                        their new houses. During these “design and fashion”
                        meetings, each owner was afforded the opportunity to choose
                        their amenities such as rugs, cabinets, and bath tubs.
                        Although EPA was extremely generous in the building of the
                        new houses, there were complaints, most of which did not
                        appear warranted. Moreover, some of the cost increases
                        were directly attributable to such complaints, as well as the
                        fact that some owners were more demanding than others.
                        The circumstances associated with Property “G” were the
                        most challenging for Region 3 personnel to resolve.

Property “G”            This property was demolished and the owner received a
                        custom-built house. The contaminated property was a three-
                        story house purchased in 1989. In 1992, the owners stopped
                        paying the mortgage2 and by 1994 faced foreclosure. The
                        owners did not live in the house, but their son did, along
                        with two tenants.

                        The property was described by the Remedial Project
                        Manager as “run-down, unmaintained, and in a large
                        portion, structurally unsound.” EPA’s architect classified the
                        building as being in “fair to poor condition,” noting that
                        “most all of the existing structure roofing/porch structure
                        was rotted or failed . . . .” Although the appraised value of
                        the property was only $161,000, its replication had cost EPA
                        over $700,000 in direct building costs. EPA has also spent,
                        or will have spent, $100,000 in moving, storage, and rental
                        fees for the owner’s son. Finally, according to EPA
                        personnel, the owner’s son made many unreasonable
                        demands that were time consuming and costly to resolve.


2
    Contrary to the Region’s advice, some owners ceased paying their mortgages.

                                          20

                                                Report No. E1SFF7-03-0117-8100090
-   Whereas most of the other owners required three
    “design and fashion” meetings, this individual
    required five meetings and numerous phone contacts
    to discuss the amenities for the new house. According
    to Region 3 personnel, part of the problem was his
    inability to come to a decision, and part of the problem
    was his overt intention to get the best of everything.
    For example, he demanded a cedar roof because a
    neighbor had gotten one as a “tradeoff.” He wanted
    his kitchens upgraded and demanded crystal lighting
    fixtures and a “Tea for Two” bathtub (an oversized tub
    installed on a platform to accommodate two people).
    When Region 3 refused these demands as
    unwarranted, he claimed that EPA was unfair and
    had lied to him.

-   This individual insisted on extensive design changes,
    upgrades, and tradeoffs. As a result, the new house
    received a variety of “add-ons” including: a second
    terra-cotta flue from the basement, a second electrical
    panel in the basement, a powder room in the
    basement, 42" kitchen cabinets (instead of the
    standard 30" cabinets), a second stairway from the
    kitchen to the basement, a bay window in the kitchen,
    and a library on the first floor with cabinets and a
    sink.

-   Despite the Region having made extensive design
    changes and concessions, when it came time to move
    out of the contaminated house, this individual refused.
    Unless his demands were met, he threatened to
    “create a disruption and a media show.” As the
    impasse continued, the Region contemplated
    contacting the US Department of Justice to seek
    assistance in dislodging this individual from the
    premises. Such actions, however, became unnecessary
    as he finally agreed to temporarily relocate.
-   Finding a temporary house also presented a problem.
    This individual refused to consider any of the
    comparable houses shown him. He demanded to be
    housed in a mansion, with an in-ground swimming

                21

                     Report No. E1SFF7-03-0117-8100090
      pool, situated on 20 acres. The Region refused and
      offered to pay $1,850 a month to place him into a
      $250,000 house, described by the RPM as being
      “immaculate” and “a house anyone would be happy to
      call home.” Although this individual finally agreed to
      relocate to this “dump” as he put it, he still expressed
      concern that it was too small to accommodate his
      “stuff.” This included items such as used tires,
      automobile mufflers, and planks of wood.

-     Actually moving this individual also proved expensive.
      EPA spent $33,864 to move his belongings, plus an
      additional $13,990 to rent storage areas ($9,750 for
      heated storage + $4,240 for unheated storage).

-     Finally, upon entering the contaminated house, EPA
      was unable to access the upper two stories because
      this individual had taken the stair treads and the
      banisters. Upon further investigation, it was learned
      that he had also removed a variety of other items
      including: light fixtures, door knobs, door jambs,
      window mounting hardware, cabinets, the heater,
      sinks, and toilets.

On the other hand, EPA did refuse to authorize a variety of
demands such as: the “Tea for Two” bathtub, a cutting board
insert for the sink in the library, excessive telephone line
installation, a full bathroom in the basement, imported
porcelain tiles, excessive landscaping features, and a new
garage. EPA also refused to pay the owners $50,000 for their
unpaid mortgage bills.

As of October 1997, the new house was complete. However,
the individual was unable to move in because the
municipality refused to issue a “use and occupancy” (U&O)
certificate for the house, despite the fact that EPA had paid
the municipality inspection fees of $40,125, or an average of
$5,700 to inspect the new houses. Specifically, the
municipality objected to a detached garage which it classified
as a “blight determination.” Although the Region pointed
out that the poor structural condition of the garage existed

                  22

                        Report No. E1SFF7-03-0117-8100090
                       prior to EPA’s involvement at the property, and that the
                       garage was not part of the project because it was not
                       contaminated, the municipality demanded the garage be
                       replaced before it would issue a U&O certificate.
                       Coincidently, this objection was raised because of a
                       complaint by the owner of an adjoining property who: (a)
                       was also receiving a new house from EPA; and, (b) was a
                       local government official deeply involved in many of the
                       negotiations with the Region over the site. As of December
                       1997, the municipality finally issued a conditional U&O
                       certificate.

                       To summarize, EPA spent
                       over $700,000 to build the
                       house seen on the right.
                       It replaced a house
                       appraised at $161,000.
                       EPA has also spent, or
                       will have spent, an
                       additional $100,000 in
                       moving, storage, and
                       rental fees for this
                       individual. Moreover,
                       EPA incurred thousands of dollars more in indirect expenses
                       dealing with this individual.

Inspection Fee Issue                                One municipality demanded that
                                                    the Agency obtain permits for
                              Inspection fees       the demolition of the old houses
                          demanded from EPA.        and the construction of the new
                                                    houses. EPA explained that it
                                                    did not have to obtain permits
                       under Superfund. However, the Region did agree to pay
                       “reasonable” inspection fees beyond the $9,500 already
                       incorporated in the USACE’s cleanup contract for
                       inspections. These fees would allow the municipalities to
                       review the housing designs and inspect the building of the
                       new houses to ensure that they adhered to local building
                       codes. Thereupon, the municipalities were to issue a U&O
                       certificate to enable the owner to occupy the house.


                                         23

                                              Report No. E1SFF7-03-0117-8100090
             One municipality which took advantage of this offer, claimed
             $73,500 for its services, including $5,000 in legal costs.
             However, the USACE and the RPM reviewed this claim and
             concluded that EPA should pay only $22,400. Dissatisfied
             with this amount, the municipality negotiated with the
             Region over a five-month period and in March 1996, received
             $40,125.

Conclusion   We believe that EPA should not be involved in the house-
             building business. While we understand that the Agency
             believed it needed to build the new houses to achieve
             community acceptance, we believe it was more generous than
             it had to be. The Region gave each owner a custom-built
             house replicating the intricate workmanship of the original
             house. As a result, the government built 10 houses paying
             an average of $651,700 each, when the original houses were
             appraised at an average of only $147,000 each. Finally, EPA
             and the USACE encountered considerable complications
             from local governments and from some of the very owners
             who were to receive the new houses.

             There currently is no policy available regarding the building
             of houses under Superfund. Region 3 asked EPA
             Headquarters to decide if houses could be built. EPA
             Headquarters replied that they could, but provided no
             instructions, policy, or guidance. We found no evidence to
             suggest that EPA was mandated to replicate the houses that
             had existed at the Austin Avenue Radiation Site. We believe
             that the Agency should consider other options instead of
             building new houses. One option that was previously
             suggested by the USACE for this site was to compensate the
             owners for the fair market value of the properties to enable
             them to arrange for the rebuilding of new homes on their
             existing lots.

             However, before this type of situation arises again, where
             EPA builds houses, the Agency should have in place explicit
             parameters to define what is meant by equivalent housing.
             We do not believe that the Agency should be obligated to
             build customized replicas of the original houses.


                               24

                                    Report No. E1SFF7-03-0117-8100090
Recommendations      We recommend that the Assistant Administrator for Solid
                     Waste and Emergency Response:

                     (1)    Establish a policy whereby instead of building
                            new houses under Superfund, EPA will give
                            preference to other options that consider the fair
                            market value of the properties. For example,
                            EPA could give the owners: (a) the replacement
                            value of their property, such as is done by the
                            insurance industry; or, (b) the amount EPA
                            would have paid to permanently relocate the
                            owners under the URA. Either of these options
                            would enable the owners to have their houses
                            rebuilt at a fair and reasonable cost without
                            involving the government in the house-building
                            business.

                     (2)    Develop a policy now that explicitly defines
                            equivalent housing, before this type of situation
                            occurs again.

Agency’s Response  The Assistant Administrator concurred with our
to Recommendations recommendations and indicated the Office of Solid Waste and
                   Emergency Response will evaluate and develop policy that
                   will: (1) define equivalent housing when Superfund activities
                   impact residential properties; and (2) address the available
                   options for providing equivalent housing in lieu of building
                   new houses for impacted residents. The policy is expected to
                   be issued by September 30, 1999.

                     The Assistant Administrator’s response also included
                     comments from the Region 3 Remedial Project Manager
                     (RPM) for the Austin Avenue Radiation Site. The RPM
                     asserted that the costs cited in our draft report were not the
                     true rebuilding costs, but were rather only estimates
                     submitted by the contractor.

                     The RPM believed that our suggestion to compensate
                     property-owners with the fair market or replacement value to


                                        25

                                              Report No. E1SFF7-03-0117-8100090
                 enable them to rebuild presented several problems.
                 Specifically, he asserted that: (1) an amount of money equal
                 to the fair market value would have been inadequate to
                 rebuild comparable structures; (2) the Federal Government is
                 required to provide homeowners with comparable living
                 arrangements, and it cannot provide the homeowners with a
                 cash equivalent to the fair market value of their properties if
                 they desire a replacement dwelling; (3) the Federal
                 Government could not relinquish its responsibility for
                 building comparable dwellings to the homeowners; and, (4)
                 property owners would not accept a forced arrangement.

                 Finally, the RPM challenged the fairness of our comparing
                 the appraised values of the properties to what it cost EPA to
                 rebuild them. Instead, he believed it would be more
                 reasonable to compare what it cost EPA to rebuild with the
                 houses’ replacement values, as might be done by insurance
                 companies.

                 On March 5, 1998, we met with the RPM and clarified
                 several issues. We also made several minor editorial changes
                 in our report as warranted. However, we did not materially
                 change our position.

                 EPA’s response meets the intent of our recommendations.
OIG Evaluation   We will be available to review the policy as it is being
                 developed, and provide input from our perspective.

                 We disagree with the RPM’s comment that it is not fair to
                 compare the cost EPA paid to rebuild the houses to their fair
                 market value. We believe that the fair market or appraised
                 value of a property should be used as the basis to compensate
                 owners. The USACE used such appraisals calculated by its
                 contractor to negotiate the relocation of other Austin Avenue
                 Site owners into comparable housing under the Uniform
                 Relocation Act. Moreover, we contacted two major insurance
                 companies and learned that the insurance industry: (a) takes
                 into consideration a house’s worth, even when writing a
                 replacement insurance policy on a new house; and (b) would
                 probably only write a policy on older houses (such as those at
                 Austin Avenue) for their fair market value. The example

                                    26

                                         Report No. E1SFF7-03-0117-8100090
illustrated by one agent was a pre-1955 house. It had a slate
roof, hardwood floors, and plaster walls and was valued at
$150,000. It would therefore be insured for a “face value”of
$150,000. But if it cost $200,000 to replicate the house the
owner would have to make up the difference or start trading,
i.e., get drywall instead of plaster.

Finally, the cost figures we used were taken directly from the
contract.




                  27

                        Report No. E1SFF7-03-0117-8100090
[This page was intentionally left blank.]




                   28

                         Report No. E1SFF7-03-0117-8100090
             EXHIBIT A

Before and After Pictures of Properties




                  29

                       Report No. E1SFF7-03-0117-8100090
[This page was intentionally left blank.]




                   30

                         Report No. E1SFF7-03-0117-8100090
                                                     Exhibit A
                                                   Page 1 of 10

                    Property A




Before - $103,000




After - $354,360

                        31

                             Report No. E1SFF7-03-0117-8100090
                                                     Exhibit A
                                                   Page 2 of 10

                    Property B




Before - $114,500




After - $277,694

                        32

                             Report No. E1SFF7-03-0117-8100090
                                                     Exhibit A
                                                   Page 3 of 10

                    Property C




Before - $120,500




After - $390,628

                        33

                             Report No. E1SFF7-03-0117-8100090
                                                     Exhibit A
                                                   Page 4 of 10

                    Property D




Before - $141,500




After - $422,175

                        34

                             Report No. E1SFF7-03-0117-8100090
                                                       Exhibit A
                                                     Page 5 of 10

                      Property E




  Before - $153,200




After - $507,878


                          35

                               Report No. E1SFF7-03-0117-8100090
                                                     Exhibit A
                                                   Page 6 of 10

                    Property F




Before - $155,000




After - $360,395

                        36

                             Report No. E1SFF7-03-0117-8100090
                                                     Exhibit A
                                                   Page 7 of 10

                    Property G




Before - $161,000




After - $706,010

                        37

                             Report No. E1SFF7-03-0117-8100090
                                                     Exhibit A
                                                   Page 8 of 10

                    Property H




Before - $161,500




After - $489,816


                        38

                             Report No. E1SFF7-03-0117-8100090
                                                     Exhibit A
                                                   Page 9 of 10

                    Property I




Before - $162,700




After - $487,449

                        39

                             Report No. E1SFF7-03-0117-8100090
                                                     Exhibit A
                                                  Page 10 of 10

                    Property J




Before - $200,000




After - $911,411


                        40

                             Report No. E1SFF7-03-0117-8100090
            APPENDIX A

Agency’s Response to Draft Audit Report




                  41

                       Report No. E1SFF7-03-0117-8100090
[This page was intentionally left blank.]




                   42

                         Report No. E1SFF7-03-0117-8100090
                            UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                        WASHINGTON, D.C. 20460



                                                                                  OFFICE OF
                                                                         SOLID WASTE AND EMERGENCY
                                                                                  RESPONSE




February 26, 1998

MEMORANDUM

SUBJECT:       Draft Audit Report on Replacement Housing
               at the Austin Avenue Radiation Site
               (Audit Report No. E1SFF7-03-0117)

FROM:          Timothy Fields, Jr. /s/
               Acting Assistant Administrator
                for Solid Waste and Emergency Response (5101)

TO:            Michael Simmons
               Deputy Assistant Inspector General
                for Internal Audits(2421)


         As requested, the Office of Solid Waste and Emergency Response (OSWER), in
consultation with Region 3, has reviewed the draft audit report entitled Replacement Housing at
the Austin Avenue Radiation Site, dated February 11, 1998. This report documents Region 3's
efforts to provide replacement housing for residents affected by cleanup activities at the Austin
Avenue Radiation Site in Delaware County, Pennsylvania.

          I concur with the recommendations stated in the report regarding the development of
policy that pertain to replacement housing at Superfund sites. OSWER will evaluate and develop
policy to: (1) define equivalent housing when Superfund cleanup activities impact residential
properties, and (2) address the available options for providing equivalent housing in lieu of
building new houses for impacted residents. We will begin development of the policy this year.
Since regional workshops will be required to enable discussion and evaluation of the concerns and
options pertaining to these and other residential cleanup issues (including methyl parathion sites),
it is estimated that the final policy will be issued by September 30, 1999.



                                                43

As signed by Timothy Fields, Jr. on 02/26/98. Report No. E1SFF7-03-0117-8100090
        In reviewing the Draft Audit Report and its Executive Summary, I would like to point out
that the recommendations in the Executive Summary are not a brief summary of the
recommendations in the Draft Audit Report. The Draft Audit Report recommends the
development of new replacement housing policy, whereas the Executive Summary goes well
beyond this recommendation to state OIG beliefs and suggested options. As stated above, I agree
that OSWER should develop such replacement housing policy. I request that the
Recommendations Section in the Executive Summary be shortened to agree with the concise
recommendations stated in the Draft Audit Report.
        Also, it appears that there is a duplication in paragraphs describing the “use and
occupancy” certification for one new house. The second paragraph on page 22 appears to be a
restatement of the paragraph at the top of page 21. We recommend that these paragraphs be
consolidated.

       Region 3 has prepared separate review comments which pertain to specific project details
included in the Draft Audit Report. Region 3's comments are attached.

       Thank you for the opportunity to provide comments on the Draft Audit Report. If you
have any questions, please contact Ken Skahn of the Office of Emergency and Remedial Response
(OERR) at 703-603-8801, or Elizabeth Harris, OSWER audit liaison, at 202-260-7323.


Attachment

cc:    Mike Shapiro                  Dev Barnes
       Abe Ferdas                    Johnsie Webster
       Elizabeth Harris              Sharon Hallinan
       Ken Skahn                     Barbara Braddock




                                              44

                                                     Report No. E1SFF7-03-0117-8100090
                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                        REGION III
                                  841 Chestnut Building
                             Philadelphia, Pennsylvania 19107



SUBJECT:       Review of Draft IG’s Report on Austin
               Avenue Radiation Site

FROM:                David P. Turner, RPM
               Western PA Section (3HS22)

TO:            Kenneth Skahn
               Office of Emergency and Remedial Response (5204G)


       I have reviewed the “Draft Audit Report” regarding the Austin Avenue Radiation Site,
dated February 11, 1998 and offer the following comments

Page 1: 2nd Paragraph:
       The remedial action also included disposal of the contaminated wastes.

        The owners not given a choice of rebuilt or relocation were either :owners of duplex
homes where the rebuild housing density on the existing lots could not be assured (since both
duplex owners would have had to select the rebuilt option), or they were owners of properties
that only had a portion (i.e. porch) contaminated and that portion could be repaired / replaced.

Page 2, “Recommendations”:
       The Region does not agree with the Draft Report’s opinion that the ROD “...went beyond
providing equivalent structures that were authorized by EPA Headquarters.” EPA HQ reviewed
the ROD containing the “same curbside appeal language” and concurred before it’s signing.

         The IG recommends that EPA use other options instead of building new houses and cites
an option, attributed to a suggestion by USACE, “...to compensate the owners for the fair market
value of the properties to enable them [the owners] to arrange for the rebuilding of new homes on
their existing lots.”

        This suggested option presents several problems. First, the concept of “fair market
value” is quite subjective and is closely associated with “appraised value.” In no instance would
an amount of money equal to the “fair market value” of any of the properties have been adequate
to rebuild, in any comparable fashion, the structures that were destroyed during the response
action(s). Second, the Uniform Relocation Act requires that the federal government provide
homeowners with living arrangements that are comparable to those destroyed by the government,

                                                45

                                                       Report No. E1SFF7-03-0117-8100090
if the owners so desire. The federal government cannot merely hand the owners cash equivalent
to the “fair market value” of their properties, but must actively seek to provide a replacement
dwelling if the owners desire a replacement dwelling. Third, since replacement housing is
required by federal law, and, therefore, must be provided for as part of the remedial action, to
allow the property owners to use government funding to rebuild their respective dwellings would,
in effect, constitute the conduct of a portion of a remedial action by those owners. The legal and
practical implications of this are certainly prohibitive. Fourth, no reasonable property owner
would accept such a forced arrangement, and EPA would likely end up facing a class action
lawsuit.

        Even if EPA were to compensate the owners with the “replacement value” of their houses
(as opposed to the “appraised value” or the “fair market value”), to expect the homeowners to
rebuild their own houses would still be problematic for the reasons noted above.

Page 5 Site History: The W. L. Cummings Radium Refining Company was the company located
at the intersection of Austin and Union Aves. Same appears on p. 6 of the Draft Report where the
“Austin Avenue Company” is referenced.

Page 6 EPA Actions: The Action also included permanent relocation for affected homeowner
selecting not to have their homes rebuilt.

        The Draft Report references four owners not given a choice. These four owners
referenced were owners of duplexes. These owners were not given a choice because the Region
was not able to assure the Borough that the housing density of the respective lot would be
achieve. (In order to rebuilt these homes on the same lot, meeting the same duplex housing
density, each of the respective homes owners would have had to select reconstruction option.)
The ROD included this provision (lack of options for these owners) to prevent a possible situation
were one owner selected rebuild and the adjoining owner selected relocation.

Page 7 Table: Some errors in Table identified, please check:
       Property R: Options provided to Owner: None
       Property V: Property addressed under Removal Action - Repair

Page 8.Relocation Options: The Draft Report references last resort housing. Loaning money is
just one option under available in the URA’s “housing of last resort” provision.

Page 9 Noteworthy Accomplishments: The remediation proceeded without incident except for a
broken wrist suffered by a worker during the dismantlement of a house.

Page 13 , 2nd paragraph - reference page 2 comment regarding EPA HQ authorization.

Page 14 2nd paragraph : the four new homes constructed are two duplexes.



                                               46

                                                      Report No. E1SFF7-03-0117-8100090
Page 15, “Cost to Build”: The IG states that, EPA paid 300 percent more to construct new
houses than the appraised value of the properties...” However, to compare the cost to rebuild the
subject houses with the appraised values of those houses is not a fair comparison. Virtually no
house had an appraised value that would have provided sufficient funds to rebuild that house. A
more reasonable comparison would have been to compare the cost that EPA incurred to rebuild
the houses with the “replacement values” of those houses as might be done by insurance
companies. If such a comparison were made, it would be shown that EPA’s costs to rebuild the
houses were more comparable to the “replacement values” and, therefore, not as disparate as
when compared to the “appraised values.” (The appraised values of the properties only had
relevance for those instances in which the property owners chose offsite relocation.)

Page 15 : Cost to Rebuild: The Draft Audit Report does not address the fact that the costs paid
to rebuild the various structures were included as “unit price” items in the submittal of a formal
response to a Request for Proposal (“RFP”) by the contractor who received the government’s
contract, under the auspices of USACE, for the project. These are not true costs, but the bidder’s
estimate. The position paper also does not note that the selected contractor’s proposal was both
the lowest price proposal and the most responsive, responsible proposal for the entire remedy.

        The ROD contains information (ROD Table 1) indicating the estimated total cost
associated with the remedial action / construction: $38.4 (MM) (This figure was arrived at by
summing the actual option later implemented at each affected property.) The independent
government cost estimate performed by the COE for the clean up was $18.1 (MM). The seven
bids the COE received for the job ranged from $13.7 (MM) to $39.6 (MM), approximately the
range covered by EPA and the COE in their estimates. This is not unexpected since the
hazardous waste remediation business is very competitive. The bids were reviewed by two
independent teams at the COE and ranked for cost and technical merit. This contract was
awarded for $13.7 (MM) to the contractor determined to give the best value for the government’s
dollar.

        A comparison of all the contract bid packages indicates that the cost of building the
replacement homes is about the same in each package. What this indicates is not that EPA paid
too much for the homes, but that its initial estimates of the cost of the homes was too low. This
was probably due to our (and the COE) inexperience in this area and an unfamiliarity with the
local market for home construction. It is another reason why we agree with the IG that the
Agency should not be in the home building business. It is also true, having better estimates of
these costs up front, well have changed our decision.


Page 15 2nd paragraph: The four homes referenced: “slated for repair” may be in error, for this
description is not entirely accurate. Four homes were not given a choice in the matter (the Pine
Street duplex properties).




                                                47

                                                       Report No. E1SFF7-03-0117-8100090
Page 19 3rd Bullet: The ATSDR psychiatrist provided assistance problems dealing with
relocation.

Page. 21: 1st Paragraph: The Borough contracted to a local contractor to provide the services
identified in the paragraph,.

Page 24, “Recommendations”: Recommendation number (1) advises that EPA should use
remediation options that consider the “fair market value” of the properties. The IG then advises
that, “For example, EPA could give the owners: (a) the replacement value of their property, such
as is done by the insurance industry...” It is apparent that the concepts of “fair market value” and
“replacement value” are not being used as distinct and separate concepts by the IG. EPA, in
rebuilding the houses, essentially provided the owners who chose building replacement with the
“replacement value” of their properties. The recommendation should be revised to reflect the
distinction between “fair market value” and “replacement value.”




                                                 48

                                                        Report No. E1SFF7-03-0117-8100090
          APPENDIX A

Region 3's Comments to Draft Report




                49

                     Report No. E1SFF7-03-0117-8100090
[This page was intentionally left blank.]




                  50

                          Report No. E1SFF7-03-0117-8100090
                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                        REGION III
                                  841 Chestnut Building
                             Philadelphia, Pennsylvania 19107

 March 17, 1998



SUBJECT:        Comments on Draft Audit Report:
                Replacement Housing at Austin Avenue Radiation Site


FROM:           W. Michael McCabe (3RA00) /s/
                Regional Administrator


TO:             Michael Simmons (2421)
                Deputy Assistant Inspector General for Internal Audits


       This responds to the February 11, 1998 Draft Audit Report on replacement housing at the
Austin Avenue Superfund Site.

        First, the Region agrees that the Agency should not be in the home building business. As
the draft report indicates, the Region’s original proposal was to relocate families into comparable
replacement off-site homes under the Uniform Relocation Act (URA). The intense public
opposition which occurred when the proposed relocation plan reached the community, however,
challenged our established approach.

        It was not simply the affected homeowners who opposed the Agency’s proposal. The
Region received almost eight hundred letters in protest, as well as significant bipartisan input from
federal, state and local representatives. The Region carefully considered this outpouring in light
of EPA’s mandate, under the National Contingency Plan, to evaluate community acceptance in
the course of remedy selection. In response, and after the Region had secured an opinion from
the Agency’s Office of General Counsel clarifying our authority, the Region included rebuilding as
an alternative to off-site relocation. At the time this decision was made, the additional costs
associated with this option were estimated to be minimal in relation to the total costs of the
cleanup.

        In its evaluation of this decision to include the rebuild option, the report focused on the
replacement of individual homes and not the community as a whole. When the Region modified
its remedy in an effort to secure community acceptance it was not dealing simply with a few
disgruntled homeowners, but with a community that was passionate and inflamed. The

                                                 51

                                                        Report No. E1SFF7-03-0117-8100090
community found the prospect of vacant lots, diminished property values, and an eroded tax base
looming over them. Vacant lots to these communities were not the wholesome places where
small children learn to play baseball, but places where used tires and other unwanted items are
dumped. In Lansdowne, a small borough where most of the contaminated homes were located,
the prospect of a reduced tax base and a further erosion of property values was a frightening
reality. For this reason the community pushed, through its elected officials, to modify the
proposed remedy to include on-site replacement of dismantled homes. Superfund, by design, has
a robust community involvement process which includes the very real possibility that the
community can change the remedy. Such a change in fact occurred at Austin Avenue after the
Region considered all of the remedy selection criteria–including community acceptance and cost.
Nonetheless, as the federal agency charged with protecting the public health and the environment,
we have an obligation not only to fulfill our fundamental mission in the affected communities we
serve, but also to manage costs for the benefit of the taxpayer in general. It is arguable that in
implementing the decision to rebuild in the absence of replacement housing guidance, too much
emphasis was placed on meeting homeowner preferences and too little on limiting costs.

        The Region also agrees that there is a need for guidance that provides a clear definition of
what a “replacement dwelling” is and is not. The draft report’s evaluation of the Region’s vision
of “replacement dwellings” turns almost exclusively on cost, using the difference between the
assessed value of the home and the rebuild cost as the benchmark. In reality, the assessed value
of a home bears no relation to the cost to construct that home today and therefore has no place in
an evaluation of the Region’s rebuild costs. The reasonableness of the Region’s rebuild costs in
this case can be measured only by reference to construction costs incurred by others in
constructing similar homes in similar locations at a similar time. The commonly accepted
insurance industry concept of “replacement cost” lends support to this position. A replacement
insurance policy would pay for the actual costs of construction, as EPA’s remedial action did, and
is not pegged to the assessed value of the home.

        Finally, the Region found itself on the relocation “cutting edge” at the time the Austin
Avenue remedial action was selected. Our experiences in implementing this remedial action have
placed the Region in a unique position to assist in development of guidance that may be useful in
avoiding many of the problems discussed in the draft report. The Region stands ready to provide
such assistance in an effort to ensure that relocations performed during Superfund cleanup actions
are cost effective as well as responsive to community needs.




                                                52

                                                       Report No. E1SFF7-03-0117-8100090
                                       APPENDIX B

                                       Distribution
Headquarters

Office of Inspector General (2410)

Assistant Administrator for Solid Waste & Emergency Response (5101)

Assistant Administrator for Congressional & Legislative Affairs (1301)

Assistant Administrator for Communications, Education & Public Affairs (1701)

Agency Follow-up Official (2710)

Agency Follow-up Coordinator (3304)

Audit Follow-up Coordinator (5101)

Regional Office

Region 3 Administrator (3RA00)

Director, Hazardous Site Cleanup Division (3HS00)

Public Affairs Branch (3CG20)

Audit Follow-up Coordinator (3PM70)

Other Offices

Divisional Inspector General Offices




                                               53

                                                     Report No. E1SFF7-03-0117-8100090
